CERTIFICATE OF SERVICE
NO. TBD
James Huff,.
Petitioners
v.
Telecheck Services, Inc. et al.,
Respondents
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury: That I am over the age of 18
years and am not a party to this action. I am an employee of the Supreme Court Press, the preparer of
the document, with mailing address at 1089 Commonwealth Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the JAMES HUFF
APPLICATION FOR EXTENSION TO JUSTICE KAGAN, by mailing one (1) true and correct copy of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
David Ruben Esquivel
Bass, Berry & Sims
150 Third Avenue South
Suite 2800
Nashville, TN 37201
(615) 742-6285
Counsel for States of Telecheck Services et al.

_______________________
Chan Sekhar
October 3, 2019

